                              Department of the Interior
                              Office of Inspector General




           AUDIT REPORT



                 U.S. Fish and Wildlife Service
              Federal Assistance Program Grants
                         Awarded to the
    State of Kansas, Department of Wildlife and Parks,
        From July 1, 2004, Through June 30, 2006




Report No. R-GR-FWS-0001-2007                     May 2007
                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                    Reston, Virginia 20191

                                                                                      May 2, 2007

                                    AUDIT REPORT
Memorandum

To:            Director
               U.S. Fish and Wildlife Service

From:          Christina M. Bruner
               Director of External Audits

Subject:       Audit on U.S. Fish and Wildlife Service Federal Assistance Program Grants
               Awarded to the State of Kansas, Department of Wildlife and Parks, From
               July 1, 2004, Through June 30, 2006 (No. R-GR-FWS-0001-2007)

        This report presents the results of our audit of costs incurred by the State of Kansas
(State), Department of Wildlife and Parks (Department), under grants awarded by the U.S. Fish
and Wildlife Service (FWS). The FWS provided the grants to the State under the Federal
Assistance Program for State Wildlife Restoration and Sport Fish Restoration (Federal
Assistance Program). The audit included claims totaling approximately $23.5 million on 42
Federal Assistance Program grants that were open during State fiscal years (SFYs) ended June
30 of 2005 and 2006 (see Appendix 1). The audit also evaluated Department compliance with
applicable laws, regulations, and FWS guidelines, including those related to the collection and
use of fishing and hunting license revenue and the reporting of program income.

        We found the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we found that the Department used an outdated statistical
report to eliminate duplicate hunting and fishing license holders from its annual report to the
FWS on the number of license holders in the State. The Department therefore may have
underreported or overreported the number of license holders to FWS.

     We provided a draft of the report to FWS and the Department for response. This report
summarizes Department and FWS Region 6 responses after the recommendation, as well as our
comments on the responses. We list the status of the recommendation in Appendix 3.

        Please provide us with your written response to the recommendations included in this
report by July 31, 2007. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation

     If you have any questions regarding this report, please contact the audit team leader,
Tom Nadsady, at 916-212-4164 or me at 703-487-5345.

cc: Regional Director, Region 6, U.S. Fish and Wildlife Service
                                                Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Federal Assistance Program for State Wildlife and Sport Fish
Restoration. Under the Federal Assistance Program, FWS provides grants to states to restore,
conserve, manage, and enhance their sport fish and wildlife resources. The Acts and federal
regulations contain provisions and principles on eligible costs and allow FWS to reimburse the
states up to 75 percent of the eligible costs incurred under the grants. The Acts also require that
state hunting and fishing license revenues be used only for the administration of the state’s fish
and game agency. Finally, federal regulations and FWS guidance require states to account for
any income they earn using grant funds.

Objectives
The objectives of our audit were to determine if the Department:

          incurred the costs claimed under the Federal Assistance Program grants in accordance
          with the Acts and related regulations, FWS guidelines, and the grant agreements;

          used State hunting and fishing license revenues solely for fish and wildlife program
          activities; and

          reported and used program income in accordance with federal regulations.

Scope
The audit work included claims totaling approximately $23.5 million on 42 FWS grants that
were open during SFYs 2005 and 2006 (see Appendix 1). We performed our audit at the
Department headquarters in Topeka and its operations office in Pratt and visited 30 wildlife or
fishery related locations (see Appendix 2). We performed this audit to supplement, not replace,
the audits required by the Single Audit Act Amendments of 1996 and by the Office of
Management and Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. We tested records and conducted other auditing
procedures as necessary under the circumstances. Our tests and procedures included:

          examining the evidence that supports selected expenditures charged to the grants by the
          Department;

1
    As amended 16 U.S.C. §§ 669 and 777, respectively.



                                                         2
       interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

       reviewing transactions and supporting documentation related to purchases, other direct
       costs, drawdowns of reimbursements, in-kind contributions and program income;

       conducting site visits to review equipment and other property; and

       determining whether the Department used hunting and fishing license revenues solely for
       sport fish and wildlife program purposes.

To the extent possible, we relied on the work of the certified public accounting firm that
performed the SFYs 2004 and 2005 single audits to avoid duplication of audit effort.

We also identified internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions for testing. We did not project the results of tests to the total population of recorded
transactions, nor did we evaluate the economy, efficiency, or effectiveness of the Department
operations.

Prior Audit Coverage
On January 24, 2003, we issued “Costs Claimed by the State of Kansas, Department of Wildlife
and Parks, under Federal Aid Grants from the U.S. Fish and Wildlife Service from July 1, 1999
through June 30, 2001” (Report No. 2003-E-0016). We followed up on all recommendations in
the report and found that they had all been considered resolved and implemented by the
Department of Interior, Office of the Assistant Secretary for Policy, Management, and Budget.

We also reviewed Kansas’ Comprehensive Annual Financial Reports and Single Audit Reports
for SFYs 2004 and 2005. None of these reports contained any findings that would directly
impact the Department’s Federal Assistance Program grants.




                                                  3
                                    Results of Audit

Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we found that the
Department may have overstated or understated the number of license holders in its report to
FWS. We discuss the finding in more detail below.

Finding and Recommendation

Overstated or Understated Number of License Holders

Each state is responsible for certifying and reporting to FWS the number of hunting and fishing
license holders in the state each year. States may count each individual only once as a fishing
license holder and once as a hunting license holder. To determine the estimated number of
license holders with more than one license and eliminate this number from its counts,
Department personnel conducted a statistical survey in 1998. The survey was outdated after
license year 2003, but the Department used it for eliminating potential duplicate license holders
from its license certifications for license years 2004 and 2005.

The Code of Federal Regulations (50 C.F.R. § 80.10 (a) and (b)) contains the requirement that
the states report to FWS the number of persons holding paid hunting and/or fishing licenses in
the state in the preceding year, and that they certify the accuracy of the counts. In addition,
Section 80.10 (c)(5) states that an individual holding more than one license to hunt or fish shall
not be counted more than once. Finally, the FWS Manual (522 FW 2.7(1), Grantee
Administration) recommends that the states conduct surveys to determine and adjust for
duplicate license holders every 5 years, or sooner if it changes the license structure.

Department officials told us that they continued using the results of the 1998 survey to eliminate
duplicate license holders from their counts because they anticipated that they would implement
an automated license system before the study became outdated. An automated system may allow
for the use of alternative methods to eliminate duplicate license holders from the annual counts.
The State has implemented an automated system, but has not updated its survey or developed an
alternative method for eliminating duplicate license holders from its counts.

The number of paid license holders reported by the Department could be overstated or
understated. Because the State receives its annual sport fish and wildlife apportionments of grant
funds based, in part, on the number of license holders, we believe that accurate counts are
necessary to assure that each state receives its fair share of funds.

Recommendation

We recommend that FWS require the Department to update its statistical survey or to develop,
document, and implement an alternative methodology for identifying and removing duplicate
license holders in the new automated system.

                                                 4
Department Response

Department officials concurred with the recommendation. Additionally, in March 2007, the
Federal Aid coordinator provided FWS with the Department’s proposed procedures for
eliminating duplicate license holders.

FWS Response

FWS management concurred with the recommendation and stated that they approved of the new
procedures planned to address the recommendation.

OIG Comments

FWS Regional management concurs with the recommendation and the Department developed
proposed procedures. We reviewed the procedures and believe they will adequately identify
duplicate license holders and allow the Department to eliminate those license holders from their
annual counts. However, additional information is needed in the corrective action plan,
including the final procedures, targeted completion date, title of the official responsible for
implementation, and verification that FWS headquarters officials reviewed and approved of the
actions taken.




                                                5
                                              Appendix 1
                                               Page 1 of 2


KANSAS DEPARTMENT OF WILDLIFE AND PARKS
 FINANCIAL SUMMARY OF REVIEW COVERAGE
  JULY 1, 2004, THROUGH JUNE 30, 2006

Grant Number   Grant Amount    Reported Outlays
 F-21-D-11        $1,432,311      $1,552,039
 F-21-D-12         1,432,311       1,572,426
 F-22-R-11           760,000         741,947
 F-22-R-12           760,000         703,168
 F-23-R-10           527,250         493,477
 F-30-R-11            85,639         106,258
 F-30-R-12            94,241          60,672
 F-33-M-12           826,917         620,188
 F-33-M-13           790,934         749,135
 F-34-D-9            263,920         296,342
 F-34-D-10           274,370         325,139
 F-38-B-5          1,318,631       1,187,478
 F-38-B-6          1,227,470         727,119
 F-40-D-8            435,435         465,557
 F-40-D-9            422,850         482,210
 F-46-L-7            210,547         173,216
 F-46-L-8            228,300         151,213
 F-50-R-1             30,475          27,073
 F-50-R-2             57,224          54,653
 F-50-R-3             58,797            5,290
 F-51-M-1          1,196,160       1,886,572
 F-51-M-2          1,196,160              597
 FW-10-C-11          104,028          97,206
 FW-10-C-12          105,432         106,900
 FW-12-C-11          108,552          95,219
 FW-12-C-12          111,960          96,336
 W-37-E-11           511,707         485,319
 W-37-E-12           518,373         492,415
 W-38-L-10         2,205,333       2,014,521
 W-38-L-11         2,226,283       1,974,672
 W-38-L-12         2,394,490          11,172
 W-39-R-11           792,024         726,409
 W-39-R-12           799,794         781,676




                   6
                                                     Appendix 1
                                                      Page 2 of 2


        KANSAS DEPARTMENT OF WILDLIFE AND PARKS
         FINANCIAL SUMMARY OF REVIEW COVERAGE
          JULY 1, 2004, THROUGH JUNE 30, 2006

        Grant Number    Grant Amount   Reported Outlays
         W-43-M-11         1,217,050       1,301,274
         W-43-M-12         1,191,910       1,247,772
         W-55-M-4            832,091         778,692
         W-55-M-5            951,431         334,004
         W-56-R-3            121,952         118,334
         W-59-D-2             60,000               0
         W-60-D-1            499,500         313,397
         W-60-D-2            203,972         113,888
         W-62-R-1             40,780          44,333
Total                    $28,626,604     $23,515,308




                           7
                                               Appendix 2

KANSAS DEPARTMENT OF WILDLIFE AND PARKS
             SITES VISITED
               Regional Offices
               Region 1, Stockton
               Region 5, Chanute

          Wildlife Management Areas
                     Brzon
                 Byron Walker
                   Glen Elder
                   Jamestown
                      Jewel
                 John Redmond
                    Lovewell
              Marais des Cygnes
                    Melvern
                     Milford
                  Mined Lands
                     Neosho
                   Sagebrush
                    Toronto
                    Woodson

                Fishing Lakes
             Cedar Bluff Reservoir
             Cedar Valley Reservoir
                Coffee County
                   Gage Park
                 Jewel County
             Pratt Centennial Pond
               Webster Reservoir

             Walk in Hunting Areas
    Crawford County walk in area #16, McCune
    Osborne County walk in area #12, Downs

         Education and Nature Center
            Milford Nature Center
            Pratt Education Center

                Fish Hatcheries
                    Milford
                     Pratt




                       8
                                                                        Appendix 3


             KANSAS DEPARTMENT OF WILDLIFE AND PARKS
            STATUS OF AUDIT FINDING AND RECOMMENDATION


    Recommendation           Status                      Action Required

A                    FWS management           Additional information is needed in the
                     concurred with the       corrective action plan, including the
                     recommendation, but      final procedures, targeted completion
                     additional information   date(s), the title of official(s)
                     is needed.               responsible for implementation, and
                                              verification that FWS headquarters
                                              officials reviewed and approved of the
                                              actions taken. We will refer the
                                              recommendation, if not resolved and/or
                                              implemented at the end of 90 days
                                              (after July 31, 2007), to the Assistant
                                              Secretary for Policy, Management and
                                              Budget for resolution and/or tracking of
                                              implementation.




                                      9
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
